         Office of Inspector General
         Audit Report



EPA Grants Awarded to the
Crow Tribe
Report No. 100370-2002-1-000098   March 27, 2002
Inspector General Resource Center
 Conducting the Audit:            Central Audit and Evaluation Resource Center
                                  Denver, Colorado Office


EPA Region Covered:                          Region 8


Program Offices Involved:                    Tribal Assistance Program
                                             Grants, Audit, and Procurement Program


Audit Conducted by:                          Larry Dare
                                             Thomas Herrod




Cover:   The illustration is part of an EPA poster that depicts Tribes’ sovereign right to protect the
         water, land, and air. The cover illustration represents air.
             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                              OFFICE OF INSPECTOR GENERAL
                     CENTRAL AUDIT AND EVALUATION RESOURCE CENTER          BRANCH OFFICES:
                                  901 NORTH 5TH STREET         1445 Ross Avenue, Suite 1200
                               KANSAS CITY, KANSAS 66101           Dallas, Texas 75202-2733
                                       913-551-7878                            214-665-6621
                                     FAX: 913-551-7837                  FAX: 214-665-6589

                                        March 27, 2002                       999 18th Street Suite 300
                                                                         Denver, Colorado 80202-2405
                                                                                        303-312-6872
                                                                                  FAX: 303-312-6063
MEMORANDUM

SUBJECT:      EPA Grants Awarded to the Crow Tribe
              Report No. 100370-2002-1-000098

FROM:         Jeff Hart
              Branch Manager
              Denver Office

TO:           Jack McGraw
              Acting Regional Administrator
              Region 8

       Attached is our report, EPA Grants Awarded to the Crow Tribe. This report includes our
independent assessment of three Crow environmental grants and the Crow Tribe’s general
management of its environmental program.

ACTION REQUIRED

        In accordance with Environmental Protection Agency (EPA) Order 2750, you, as the
action official, are required to provide our office with a proposed draft management decision
specifying the Agency's position on our recommendation on costs questioned and other
recommendations in this report. The draft management decision is due within 120 calendar days
of the date of this transmittal memorandum.

        Our report includes an assessment of your draft report comments. We also included your
written comments as Appendix I.

       If you have any questions, please call me at (303) 312-6169 or Larry Dare at
(303) 312-6969. Please refer to report number 100370-2002-1-000098 on any related
correspondence.


Attachment
                                           Table of Contents

Independent Auditor’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Audit Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          Objective        ...........................................................2

          Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          Findings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


Exhibits

          A: Summary of Balance Due EPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          B: Summary of Audit Results for Water Section 106 Grant I998173-99 . . . . . . . . . . . . 8

          C: Summary of Audit Results for General Assistance Program
                Grant NI998122-02 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          D: Summary of Audit Results for Water
                Special Project Grant X988061-01 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

Appendices

           I:    Region 8 Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

          II:    Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                                                                                         EPA Grants
                                                                            Awarded to the Crow Tribe



                          Independent Auditor’s Report

We have examined the costs claimed on the final Financial Status Report (Form 269A) and
Request for Advance or Reimbursement (Form 270) for each of the grants listed in the Scope and
Methodology section submitted by the Crow Tribe, Crow Agency, Montana (grantee). The
preparation and certification of the claims are the responsibility of the grantee. Our responsibility
was to express an opinion on the claims.

We conducted our examination in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the costs claimed by the grantee are free of
material misstatement and are eligible under grant agreements. An audit includes examining, on a
test basis, evidence supporting the amounts and disclosures in the final claims. An audit also
includes assessing the accounting principles used and significant estimates made by management
in preparing the claims. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the claimed costs referred to above and presented in Exhibits A through D do not
present fairly the reasonable, allowable, and allocable costs claimed according to the law,
regulations, assistance agreements, and other applicable Federal guidance.



                                              Jeff Hart
                                              Branch Manager
                                              Denver Office
                                              Central Audit and Evaluation Resource Center
                                              Office of Inspector General

                                              Fieldwork End: March 7, 2002




                                                  1                   Report No. 100370-2002-1-000098
                                                                                          EPA Grants
                                                                             Awarded to the Crow Tribe



                                      Audit Results

In response to a December 7, 1999 allegation letter, we reviewed (1) the legality of
Environmental Protection Agency (EPA) Region 8's Tribal Assistance Program grant awards,
(2) the Tribal Assistance Program’s internal management, and (3) grantee management of
environmental programs and expenditure of grant funds. We reported on the first two issues in
our September 29, 2000 report, Increased Focus on Grant Management and Internal
Relationships Would Improve Region 8's Tribal Assistance Program. To address the third issue,
we conducted financial audits of four grantees. We judgmentally selected the four tribes based on
their significant involvement with EPA programs, past performance, and the fact that each had
several recently closed grants for which we expected to find complete financial records. This
report provides our findings at one of those grantees – the Crow Tribe, Crow Agency, Montana.



Objective
Our overall objective was to determine whether the grantee effectively managed its environmental
grants. To accomplish this objective, we asked the following question: Were costs claimed for
grants eligible, reasonable, and supported and were the costs in compliance with grant terms and
conditions as well as applicable Federal statutes and regulations?



Scope and Methodology
The grantee claimed costs totaling $429,982 under the following three assistance agreements:

                                                        Financial Status
               Program                Grant No.        Report Form 269A         Amount

     Water Section 106             I998173-99         September 30, 2000          $114,497

     General Assistance Program    NI998122-02        March 31, 2000              $258,824

     Water Special Project         X988061-01         December 15, 2000           $ 56,661

                                                      Total                       $429,982


We selected these three grants to obtain a cross-section of the grantee’s environmental
program. Grant I998173-99 involved water quality projects from April 1999 through
September 2000. Grant NI998122-02 involved activities from April 1996 through March
2000 for increasing tribal capacity and management capabilities to implement environmental
programs. Grant X988061-01 was a special project grant from July 1999 through December
2000 to conduct workshops to educate reservation residents on water quality monitoring and

                                                  2                    Report No. 100370-2002-1-000098
                                                                                           EPA Grants
                                                                              Awarded to the Crow Tribe

cleanup activities. EPA paid 100 percent of the costs claimed for grant NI998122-02 and 95
percent of eligible costs for the other two grants. The costs claimed for the three grants
totaled $429,982 and included EPA payments totaling $356,520.

For each grant, the grantee certified on Standard Form 270, Request for Advance or
Reimbursement, that the costs were in accordance with the grant terms. Subsequently, the
grantee certified on Standard Form 269A, Financial Status Report, that all outlays and
unliquidated obligations were for the purposes set forth in the award documents.

We visited the Crow Tribe Reservation during the week of March 19, 2001. We reviewed
the three grants and related documents, detailed expense ledgers, accompanying receipts, and
other supporting documentation, and met with Crow officials responsible for executing grant
requirements.



Findings
We Questioned 72 Percent of Costs Claimed

We questioned 72 percent, or $308,237, of all costs claimed under the three grants we
audited. Of EPA payments made, the EPA share of questioned costs is $237,683. The
questioned costs primarily consist of unsupported payroll costs (salaries and fringe benefits)
and related indirect costs. Specifically:

       •       We questioned all payroll and payroll-related costs because the grantee's
               payroll system did not meet Office of Management and Budget Circular A-87
               requirements.

       •       We questioned all indirect costs because the grantee used payroll costs as the
               basis to determine indirect costs and, as noted above, the grantee's method of
               charging payroll costs did not meet Office of Management and Budget
               requirements.

Exhibit A shows overall costs claimed and questioned while Exhibits B through D provide
detailed summaries for each of the four grants.

Internal Controls Did Not Support Good Grant Management

The General Accounting Office’s Standards for Internal Control in the Federal Government
(Standards) establish standards that should be part of any organization’s management.
According to the Standards, sufficient internal control helps provide reasonable assurance
that an organization’s operations are effective and efficient, financial reporting is reliable, and
applicable laws and regulations are followed. A strong internal control structure includes five


                                                   3                   Report No. 100370-2002-1-000098
                                                                                         EPA Grants
                                                                            Awarded to the Crow Tribe

components: (1) control environment, (2) risk assessments, (3) control activities, (4)
information and communications, and (5) monitoring.

Even though our audit did not include a comprehensive review of the grantee's internal
controls for managing its Federal grants, we observed two material weaknesses during our
audit that raised serious concerns about the ability of the Crow Tribe to adequately manage
environmental grants. Tribal leadership, management, and staff did not emphasize the
importance of good internal controls and did not adequately communicate program or
financial information.

       Control Environment: Crow Tribe’s leadership did not emphasize and, as a result,
       management and staff did not establish a positive control environment, the foundation
       for all other internal control standards. The Standards require that a positive control
       environment includes competent staff with high integrity and ethical values, strong
       management oversight of staff, clearly defined staff authority and responsibility, and
       strong human capital policies and practices. Management provided neither the
       discipline and structure nor the climate to positively influence the quality of internal
       controls. For example, management did not require staff to charge time to individual
       projects, nor did management ensure environmental staff complied with grant
       provisions. In addition, management did not establish an effective organizational
       structure and management did not implement effective oversight practices.

       Information and Communications: Crow Tribe management did not adequately
       communicate program or financial information to either EPA or Tribal management.
       The Standards require pertinent information to be, “identified, captured, and
       distributed to the right people in sufficient detail and at the appropriate time to enable
       them to carry out their duties and responsibilities efficiently and effectively.” Timely
       information should be available and in a form that allows Crow management and staff
       as well as EPA staff to ensure programs operate effectively and efficiently. Timely
       Financial Status Reports help Tribal and EPA managers determine whether funds are
       sufficient to complete required tasks and program performance progress reports
       highlight accomplishments and areas that need extra attention. However, Crow Tribe
       staff, in some cases, could not locate accounting records necessary to support claimed
       costs and did not ensure Tribal management and EPA staff were provided adequate
       information to monitor program progress. Crow staff did not regularly communicate
       their difficulty completing tasks on one grant and did not seek advice about how the
       grant could have been successfully completed.




                                                 4                    Report No. 100370-2002-1-000098
                                                                                       EPA Grants
                                                                          Awarded to the Crow Tribe

Recommendations

We recommend that the Acting Regional Administrator, Region 8:

   1. Recover $237,683 in payments made to the grantee for which we questioned costs.

   2. Designate the grantee as high risk until the grantee develops and implements written
      procedures and controls to ensure that its:

       (a) financial management system can adequately account for and support all claimed
           costs;

       (b) payroll system meets Office of Management and Budget Circular A-87
           requirements; and

       (c) oversight procedures are sufficient to help ensure project tasks are completed
           and products delivered.

   3. Suspend all current and new grants if, after 6 months, the grantee has not met the
      requirements of recommendation 2.

   4. Discuss the importance of strong internal controls, including meaningful, timely
      program performance reporting, with Crow Tribe managers.

   5. Work with the Tribe to help it develop and implement policies and procedures to
      protect EPA grant funds and strengthen environmental program performance.


Agency Comments and OIG Evaluation

Region 8 officials generally agreed with the findings and recommendations. Regional staff
provided comments to clarify portions of the report and we have incorporated those
comments and modified the report as appropriate. We have included the Region's complete
response in Appendix I.

We reviewed the documentation the grantee sent to the Region regarding questioned costs
and agree with the Region that the materials the grantee provided support $26,263 of the
costs questioned in our February 1, 2002 draft report. We reviewed the additional
information provided by the grantee, analyzed the sufficiency of that information, accepted
certain items of cost, and modified our report as appropriate. As a result we have changed
recommendation 1 to read: “Recover $237,683 in payments made to the grantee for which
we questioned costs.”




                                                5                   Report No. 100370-2002-1-000098
                                                                                          EPA Grants
                                                                             Awarded to the Crow Tribe

The Region agreed to designate the grantee as high risk. In order to fully comply with EPA
Order 2750, the Region must request from the grantee a corrective action plan describing
how it will comply with recommendation 2. The grantee's corrective action plan should
include milestone dates and specific actions it will take in order to correct the issues noted in
recommendation 2.

The Region substantially agreed with recommendation 3. We agree that the Region should
reevaluate the grantee's financial management system after 6 months to determine whether
the grantee has made substantial progress correcting deficiencies. We also agree that if the
grantee has fully complied the Region should remove the grantee's high risk designation. We
believe, however, that the Region should recognize that if the grantee has made little or no
progress, the Region should withhold future grants until the grantee complies with Office of
Management and Budget Circular A-87.

The Region agreed that it would emphasize the importance of strong internal controls during
its next visit to the Tribe.




                                                  6                    Report No. 100370-2002-1-000098
                                                                                       EPA Grants
                                                                          Awarded to the Crow Tribe

                                        Exhibit A

                      Summary of Balance Due EPA

 Water Section 106 Grant I998173-99      EPA Payments as of 7/6/2001                $62,140
 (See Exhibit B)
 •   $114,497 Claimed                    EPA Share (95% of allowable)1              $41,428
 •   $70,889 Questioned
 •   $43,608 Total Allowable             Balance Due EPA                            $20,712


 General Assistance Program Grant        EPA Payments as of 9/6/2000              $258,824
 NI998122-02 (See Exhibit C)
 •   $258,824 Claimed                    EPA Share (100% of allowable)              $63,579
 •   $195,245 Questioned
 •   $63,579 Total Allowable             Balance Due EPA                          $195,245


 Water Special Project Grant             EPA Payments as of 11/1/2001               $35,556
 X988061-01
 (See Exhibit D)                         EPA Share (95% of allowable)               $13,830
 •   $56,661 Claimed
 •   $42,103 Questioned
 •   $14,558 Total Allowable             Balance Due EPA                            $21,726




                         Total Costs Claimed:                 $429,982
                         Total Costs Questioned:              $308,237
                         Total Allowable:                     $121,745

                         Total EPA Payments Made:             $356,520
                         Total EPA Share Allowable:           $118,837

                         Balance Due EPA:                     $237,683




Note

1. EPA share represents EPA's portion of allowable project costs.



                                                   7                Report No. 100370-2002-1-000098
                                                                                           EPA Grants
                                                                              Awarded to the Crow Tribe



                                                Exhibit B

                          Summary of Audit Results for
                        Water Section 106 Grant I998173-99


                                                            Costs Questioned as:

                         Costs
     Categories         Claimed        Ineligible    Unreasonable      Unsupported          Total

 Payroll                $55,091                                             $55,091        $55,0911
 Travel                    5,809
 Lease Vehicle             6,668
 Supplies                    831         $188                                                  1882
 Contracted
 Svcs                     18,149                                                495            4953
 Mileage                      28
 Rental/Office             2,400
 Equipment                 7,400
 Utilities                   247
 Indirect Cost            15,115                                             15,115         15,1154
 Telephone                 2,758

 Total                 $114,4975           $188                             $70,701         $70,889

 Total Allowable (Claimed less Questioned)                                                  $43,608


 Summary of Balance Due EPA

 EPA Payments as of 7/6/2001             $62,140

 EPA Share (95% of allowable)            $41,428

 Balance Due EPA                         $20,712


Notes

1.                We questioned $55,091 of salaries and related fringe benefit costs as unsupported
                  because the grantee did not use an acceptable basis for charging salaries. The
                  grantee neither maintained an after-the-fact accounting of time charges nor
                  certified that any employees worked solely on the water grant. Office of

                                                    8                   Report No. 100370-2002-1-000098
                                                                              EPA Grants
                                                                 Awarded to the Crow Tribe

     Management and Budget Circular A-87 requires that when employees work on
     more than one activity or cost objective, their salary or wage distribution must be
     supported by documentation that reflects an after-the-fact distribution of the actual
     activity of each employee. Specifically, the Circular provides that, “Budget
     estimates or other distribution percentages determined before the services are
     performed do not qualify as support for charges to Federal awards . . . .” The
     Circular further requires that when employees are expected to work solely on a
     single Federal award, “charges for their salaries and wages will be supported by
     periodic certifications that the employees worked solely on that program for the
     period covered by the certification . . . .” Certifications must be prepared at least
     semi-annually and signed by the employee or a supervisor having first-hand
     knowledge of the work performed. The Circular provides that “substitute
     systems,” such as quantifiable measures of employee effort, may be used instead of
     an after-the-fact distribution of an employee’s actual activity.

2.   We questioned $188 of supply costs as ineligible. The $188 was for an “EPA
     luncheon.” Although we were unable to find the support for the expense, we
     considered the cost ineligible because Office of Management and Budget Circular
     A-87 provides that, “Costs of entertainment . . such as . . . meals. . . are
     unallowable” and therefore ineligible.

3.   We questioned $495 of contractual costs as unsupported because the grantee was
     unable to locate the supporting documentation for the costs.

4.   We questioned all indirect costs as unsupported because we questioned all of the
     payroll costs (salary and fringe benefits), as discussed in Note 1, and the grantee
     used salaries as the basis for indirect costs.

5.   Does not add due to rounding.




                                       9                   Report No. 100370-2002-1-000098
                                                                                           EPA Grants
                                                                              Awarded to the Crow Tribe



                                             Exhibit C

                     Summary of Audit Results for
             General Assistance Program Grant NI998122-02


                                                            Costs Questioned as:

                        Costs
     Categories        Claimed        Ineligible         Unreasonable   Unsupported         Total

 Payroll                $168,163                                            $168,163      $168,1631
 Contracted Svcs           5,170
 Equipment                 6,360
 Vehicle Rent             19,011
 Office Supplies           4,307             $195                                              1952
 Other Supplies                54
 Miscellaneous            14,620
 Travel Off Res.          13,252
 Utilities                 1,000
 Indirect Cost            26,887                                              26,887        26,8873

 Total                 $258,8244             $195                           $195,050     $195,245

 Total Allowable (Claimed less Questioned)                                                 $63,579


 Summary of Balance Due EPA

 EPA Payments as of 9/6/2000           $258,824

 EPA Share (100% of allowable)          $63,579

 Balance Due EPA                       $195,245



Notes

1. We questioned $168,163 of salaries and related fringe benefit costs as unsupported because the
   grantee did not use an acceptable basis (as outlined in Office of Management and Budget
   Circular A-87) for charging salaries. See Exhibit B, Note 1.




                                                    10                  Report No. 100370-2002-1-000098
                                                                                         EPA Grants
                                                                            Awarded to the Crow Tribe

2. We questioned $195 of office supply costs as ineligible because the costs were incurred outside
   of the grant period. Regulations at 40 CFR Section 31.23 do not permit the grantee to charge
   costs to the grant resulting from expenses incurred outside the grant period.

3. We questioned all indirect costs as unsupported because we questioned all of the payroll costs
   (salary and fringe benefits), as discussed in Note 1, and the grantee used salaries as the basis for
   indirect costs.

4. Does not add due to rounding.




                                                  11                  Report No. 100370-2002-1-000098
                                                                                      EPA Grants
                                                                         Awarded to the Crow Tribe

                                                Exhibit D

                      Summary of Audit Results for
                  Water Special Project Grant X988061-01


                                                        Costs Questioned as:

                     Costs
   Categories       Claimed        Ineligible      Unreasonable     Unsupported          Total

 Payroll               $33,774                                            $33,774       $33,7741

 Travel                  6,766           $938                                               9382

 Telephone                 550

 Supplies                  125

 Rent/Office             2,400

 Equipment               1,945

 Contractual             3,710

 Indirect Cost           5,048                                                 5,048      5,0483

 In Kind Match           2,343                                                 2,343      2,3434

 Total                 $56,661           $938                             $41,165        $42,103

 Total Allowable (Claimed less Questioned)                                               $14,558


 Summary of Balance Due EPA
 EPA Payments as of 11/1/2001     $35,556
 EPA Share (95% of allowable)     $13,830
 Balance Due EPA                  $21,726



Notes

1. We questioned $33,774 of salaries and related fringe benefit costs as unsupported because the
   grantee did not use an acceptable basis (as outlined in Office of Management and Budget
   Circular A-87) for charging salaries. See Exhibit B, Note 1.




                                                   12              Report No. 100370-2002-1-000098
                                                                                       EPA Grants
                                                                          Awarded to the Crow Tribe



2. We questioned $938 in travel costs as ineligible because the project coordinator claimed higher
   than allowable and/or actual lodging costs for four trips and did not return the money to the
   Tribe.

3. We questioned all indirect costs as unsupported because we questioned all of the payroll costs
   (salary and fringe benefits), as discussed in Note 1, and the grantee used salaries as the basis
   for indirect costs and those costs were unsupported.

4. We questioned all match as unsupported because the grantee did not provide documentation
   for the amount of match claimed.




                                                13                  Report No. 100370-2002-1-000098
                        EPA Grants
           Awarded to the Crow Tribe




14   Report No. 100370-2002-1-000098
                                       EPA Grants
                          Awarded to the Crow Tribe



                                     Appendix I
Region 8 Response




       15           Report No. 100370-2002-1-000098
                                                                                   EPA Grants
                                                                      Awarded to the Crow Tribe



                                                                                Appendix II
                                       Distribution


Office of Inspector General
   Inspector General

EPA Headquarters Office
  Comptroller (2731A)
  Director, Grants Administration Division (3903R)
  Agency Audit Followup Coordinator (2724A)
  Associate Administrator for Congressional and Intergovernmental Relations
    (1301A)
  Associate Administrator for Communications, Education, and Media Relations
    (1101A)

Region 8 Office
   Regional Counsel
   Assistant Regional Administrator, Office of Partnerships and Regulatory
     Assistance
   Associate Assistant Regional Administrator, Office of Partnerships and
     Regulatory Assistance
   Director, Tribal Assistance Program
   Assistant Regional Administrator, Office of Technical and Management Services
   Director, Grants, Audits, and Procurement Program
   Director, Financial Management Program
   Audit Followup Coordinator
   Director, Office of Communication and Public Involvement
   Crow Tribal Program Manager, Tribal Assistance Program

Crow Tribe
   Chairman




                                              16                Report No. 100370-2002-1-000098
